                                                               Issue Date
                                                                   February 20, 2007
                                                               Audit Report Number
                                                                   2007-PH-1005




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH
           Robert Jennings, Director, Richmond Office of Public Housing, 3FPH



FROM:



SUBJECT:   The Newport News Redevelopment and Housing Authority, Newport News,
            Virginia, Did Not Always Follow HUD Requirements

                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Newport News Redevelopment and Housing Authority
           (Authority) as part of our fiscal year 2006 annual audit plan. Our main objective
           was to determine whether the Authority appropriately used low-rent public
           housing funds to support its other programs and whether it purchased goods and
           services in compliance with U.S. Department of Housing and Urban Development
           (HUD) and federal regulations. We also evaluated the Authority’s compliance
           with HUD regulations for recertifying low-income housing tenants and its support
           for drawdowns of HUD funds.

 What We Found


           The Authority generally complied with HUD regulations for recertifying low-
           income housing tenants and properly supported its drawdowns of HUD funds.
           However, contrary to its consolidated annual contributions contract, the Authority
           used low-rent public housing funds to pay expenses of its other HUD and non-
           HUD programs and did not settle the $246,254 balance due to the low-rent public
           housing fund in a timely manner. It also did not always record financial
           transactions on its books in a timely manner. Additionally, contrary to federal
           procurement regulations and its own procurement policy, the Authority did not
           always adequately justify awarding contracts. These problems occurred because
           the Authority did not have internal controls requiring it to reconcile and settle its
           accounts monthly and ensure that it recorded financial transactions on its books in
           a timely manner. Further, the Authority’s staff did not follow its established
           procurement policy and was unaware of pertinent requirements.

What We Recommend


           We recommend that HUD direct the Authority to repay its low-rent public
           housing fund $246,254 owed by its other HUD and non-HUD programs and
           create and implement policies and procedures to ensure that all transactions are
           recorded on the books in a timely manner and that the due-to/due-from account is
           reconciled and settled monthly, thereby putting $489,522 in public housing funds
           to better use over a one-year period. Further, we recommend that the Authority
           develop and implement procedures to ensure that it properly awards contracts
           according to established policies and procedures and emphasize to responsible
           personnel the need to follow applicable policies and procedures and provide them
           training regarding federal procurement requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the report with the Authority during the audit and at an exit
           conference on February 1, 2007. The Authority provided written comments to
           our draft report on February 8, 2007. The Authority agreed with the audit report
           and began taking corrective actions to satisfy our recommendations. The
           complete text of the Authority’s response, without attachments, can be found in
           appendix B of this report. Copies of the attachments are available upon request.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding 1: The Authority Did Not Settle Interfund Balances Due to Its Low-   5
      Rent Public Housing Fund in a Timely Manner
      Finding 2: The Authority Did Not Always Follow Federal Procurement           8
      Requirements When Awarding Contracts

Scope and Methodology                                                              10

Internal Controls                                                                  11

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               12
   B. Auditee Comments                                                             13




                                             3
                      BACKGROUND AND OBJECTIVES

The Newport News Redevelopment and Housing Authority (Authority) was established in 1938 to
create affordable housing, viable neighborhoods, and opportunities for self-sufficiency to enhance
the quality of life for all citizens of Newport News. A seven-member board of commissioners
governs the Authority. The Authority’s executive director is Karen R. Wilds. Its main
administrative office is located at 227 27th Street in Newport News, Virginia.

The Authority owned and operated 2,151 public housing units and administered 2,216 housing
choice vouchers under consolidated annual contributions contracts with the U.S. Department of
Housing and Urban Development (HUD) during the audit. The consolidated annual contributions
contract defines the terms and conditions under which the Authority agrees to develop and operate
all projects under the agreement. HUD authorized the Authority the following financial assistance
from fiscal years 2004 to 2005:

   •   $26.7 million to provide housing assistance through tenant-based Section 8 housing choice
       vouchers,

   •   $9.4 million in operating subsidies to operate and maintain its low-income housing
       developments, and

   •   $6.6 million in Public Housing Capital Fund program funding to modernize its low-income
       public housing units.

Our main audit objective was to determine whether the Authority appropriately used low-rent
public housing funds to support its other programs and whether it purchased goods and services
in compliance with HUD and federal regulations. We also evaluated the Authority’s compliance
with HUD regulations for recertifying low-income housing tenants and its support for
drawdowns of HUD funds.




                                                 4
                                      RESULTS OF AUDIT

Finding 1: The Authority Did Not Settle Interfund Balances Due to Its
Low-Rent Public Housing Fund in a Timely Manner
Contrary to its consolidated annual contributions contract, the Authority used low-rent public
housing funds 1 to pay expenses of other HUD and non-HUD programs and did not settle the
balance due to the low-rent public housing fund in a timely manner. Additionally, the Authority
did not always record financial transactions on its books in a timely manner. These problems
occurred because the Authority did not have internal controls requiring it to reconcile and settle
its accounts monthly and ensure that it recorded financial transactions on its books in a timely
manner. As a result, at the end of the Authority’s fiscal year 2006, 2 $246,254 had been owed to
the low-rent public housing fund by the Authority’s other HUD and non-HUD programs for
more than 30 days, and its financial records were incomplete. By developing and implementing
policies and procedures to ensure that the due-to/due-from account is reconciled and settled
monthly, the Authority can put $489,522 3 in public housing funds to better use over a one-year
period.



    Interfund Balances Due to the
    Low-Rent Public Housing Fund
    Were Not Settled Monthly

                 The Authority used a due-to/due-from accounting system to account for
                 transactions directly between other funds and/or other entities included within its
                 general ledger but did not have adequate internal controls requiring it to reconcile
                 and settle its accounts monthly. A program’s or entity’s due-to balance (payable)
                 represents amounts it owes another fund or entity for disbursements and/or
                 advances made on its behalf. A due-from balance (receivable) represents an
                 amount owed to the program or entity.

                 At the end of the Authority’s fiscal year 2005, three HUD program accounts 4 and
                 three non-HUD program accounts owed the low-rent public housing fund
                 $732,790. At the end of fiscal year 2006, two HUD program accounts and two
                 non-HUD program accounts owed the low-rent public housing fund $246,254 as
                 shown below.
1
  Public housing operating subsidy and rent revenues.
2
  The Authority’s fiscal year ends June 30.
3
  Average amount of funds owed to the low-rent public housing program over a two-year period. $246,254 was
owed to the low-rent public housing program at the end of the Authority’s fiscal year 2006, and $732,790 was owed
at the end of fiscal year 2005. Therefore, $246,254 + $732,790 = $979,044 divided by two years equals $489,522
annually.
4
  Section 8 Housing Choice Voucher program, Community Development Block Grant program, and HOME
Investment Partnerships Program.


                                                        5
                       Program type       Program account description        Amount due to
                                                                              the low-rent
                                                                             public housing
                                                                                program
                         Non-HUD             Property management                 $124,669
                         HUD                 Community Development               $105,582
                                             Block Grant
                         HUD                 HOME Investment                      $ 11,747
                                             Partnerships
                         Non-HUD             Tax-exempt bonds                     $ 4,256
                         Total                                                    $246,254

                    The Authority’s use of low-rent public housing funds to support other HUD and
                    non-HUD programs is a violation of its consolidated annual contributions
                    contract. The contract states 5 that the Authority may withdraw funds from the
                    general fund only for the payment of the costs of development and operation of
                    the projects under the consolidated annual contributions contract with HUD, the
                    purchase of investment securities as approved by HUD, and such purposes as may
                    be specifically approved by HUD. It further states that program funds are not
                    fungible and that withdrawals shall not be made for a specific program in excess
                    of the funds available for the program.

                    The violation occurred because the Authority did not have controls in place to
                    ensure that it reimbursed its low-rent public housing program in a timely manner.
                    The Authority needs to reimburse its low-rent public housing fund $246,254 and
                    create and implement policies and procedures to ensure that the due-to/due-from
                    account is reconciled and settled monthly, thereby putting $489,522 in low-rent
                    public housing funds to better use over a one-year period.

    The Authority Did Not Always
    Record Transactions on Its
    Books in a Timely Manner


                    For fiscal year 2005, the Authority did not record its year-end adjusting entries on
                    its books. The Authority’s consolidated annual contributions contract 6 requires it
                    to maintain complete and accurate books of account. Although its independent
                    public accountant included the adjusting entries in the financial data reported to
                    HUD, the independent public accountant did not provide the adjusting entries to
                    the Authority to update its books until we requested them in October 2006. To
                    prevent this from occurring in the future, the Authority needs to create and
                    implement policies and procedures to ensure that all transactions are recorded on
                    the books in a timely manner.

5
    Part A, section 9(C).
6
    Part A, section 15(A).


                                                     6
    The Authority Is Taking Action


                 We discussed these problems with the Authority during the audit, and it began to
                 take corrective action. It reimbursed its low-rent public housing program
                 $246,254 owed from the other programs. The Authority’s board of
                 commissioners approved a resolution in November 2006, requiring the Authority
                 to reconcile and settle the low-rent public housing fund’s due-to/due-from account
                 monthly or as soon as funds are available. In its written response, the Authority
                 stated that it will establish and implement the necessary policies and procedures to
                 satisfy recommendations 1B and 1C.

    Recommendations


                 We recommend that the director of the Baltimore Public Housing Program Hub 7
                 direct the Authority to

                 1A.      Repay its low-rent public housing fund $246,254 ∗ for funds advanced to
                          pay expenses of other HUD and non-HUD programs.

                 1B.      Create and implement policies and procedures to ensure that all
                          transactions are recorded on the books in a timely manner and that the
                          due-to/due-from account is reconciled and settled monthly, thereby putting
                          $489,522 in public housing funds to better use over a one-year period.

                 1C.      Accurately and completely record the year-end adjusting entries for fiscal
                          year 2005 on its books.




7
  We also addressed this audit report to the director, Richmond Office of Public Housing, at the request of the
director, Baltimore Public Housing Program Hub.
∗
  The Authority took action to repay this amount. No further action concerning this recommendation is required.


                                                        7
Finding 2: The Authority Did Not Always Follow Federal Procurement
Requirements When Awarding Contracts
Contrary to federal procurement regulations and its own procurement policy, the Authority did
not always perform required cost or price analyses to justify awarding contracts. This occurred
because Authority staff did not follow established policy and was otherwise unaware of the
requirements. As a result, the Authority awarded three contracts to sole bidders totaling
$560,207 without having assurance that the prices were fair and reasonable. During the audit,
the Authority created the documentation to properly justify awarding the three contracts.



    The Authority Did Not Always
    Perform Required Analyses

                 The Authority did not always follow federal procurement regulations or its own
                 procurement policy for acquiring goods and services. It was not able to provide
                 documentation to demonstrate that three contracts awarded to sole bidders, valued
                 at $560,207, were fair and reasonable. We selected eight contracts with values
                 greater than $50,000 totaling $1.2 million (about 70 percent) from 150 contracts
                 valued at $1.7 million with ending dates of September 30, 2005, or later, as of
                 May 2006. Contrary to federal regulations and the Authority’s procurement
                 procedures, the Authority did not prepare a cost or price analysis to justify
                 awarding three of the eight contracts reviewed. Federal regulations 8 require that a
                 cost or price analysis be completed when adequate price competition is lacking,
                 such as when only one bid is received for a contract. Further, HUD Handbook
                 7460.8 9 states that for a sealed bid that only receives one bid, a cost analysis is
                 required. Also, the Authority’s procurement policy 10 requires a cost or price
                 analysis for all procurement actions and specifically states that if only one
                 responsive bid is received from a responsible bidder, the award shall not be made
                 unless a cost or price analysis verifies the reasonableness of the price. The
                 following chart provides details of the three contracts.

                             Contract type                Contract amount
                       Plumbing services                     $292,500
                       Water heaters                         $211,332
                       Heating, ventilation, and             $ 56,375
                       air conditioning services
                                  Total                       $560,207

                 Although the Authority did not perform the required analyses before awarding the
                 contracts, it created price analysis documentation, which properly justified

8
  24 CFR [Code of Federal Regulations] 85.36(f)(1).
9
  Section 4-33(B).
10
   Sections F(1) and C(3).


                                                      8
                       awarding the three contracts, after we discussed this issue with the executive
                       director and the procurement officer. Therefore, no further corrective action
                       concerning the three contracts is needed.

     Responsible Personnel Were
     Not Aware of Requirements
     and Lacked Training


                       The Authority’s procurement officer was not aware of federal procurement
                       requirements and the Authority’s policies and procedures regarding contract
                       awards in instances of a sole bidder. At the Authority, each department director is
                       responsible for initiating purchases. The procurement officer is responsible for
                       determining the proper method of contracting. Although the Authority’s
                       procurement policy adequately addressed federal procurement regulations, the
                       procurement officer did not follow the policy due to an oversight. Before being
                       employed by the Authority in November 2005, the procurement officer worked
                       for the Commonwealth of Virginia and was not required to follow federal
                       procurement regulations. We discussed these issues with the Authority during the
                       audit. It sent its procurement officer to a two-day federal procurement training
                       course in August 2006. To ensure that the Authority properly documents its
                       contract award process in the future, it needs to develop and implement controls
                       to ensure that responsible personnel award contracts according to established
                       policies and procedures. Further, it needs to emphasize to responsible personnel
                       the need to follow applicable policies and procedures and provide them additional
                       training regarding federal procurement requirements.

     Recommendations


                       We recommend that the director of the Baltimore Public Housing Program Hub 11
                       require the Authority to

                       2A.    Develop and implement procedures to ensure that it properly awards contracts
                              according to established policies and procedures.

                       2B.    Emphasize to responsible personnel the need to follow applicable policies
                              and procedures and provide them training regarding federal procurement
                              requirements.




11
     See footnote 7.


                                                        9
                         SCOPE AND METHODOLOGY

We performed the audit at the Authority in Newport News, Virginia, from May through October
2006. The audit was performed in accordance with generally accepted government auditing
standards and included tests of internal controls that we considered necessary.

The audit covered transactions representative of operations current at the time of the audit and
included the period January 2004 through April 2006. We expanded the scope of the audit as
necessary. During the audit, we assessed the reliability of computer-processed data relevant to
our audit by comparing it to hard-copy information. We found the computer-processed data
were sufficiently reliable to meet our audit objectives.

To accomplish our objectives, we

   •   Reviewed applicable regulations and guidance.

   •   Discussed operations with the Authority’s management and staff and key officials from
       HUD’s Richmond, Virginia, field office.

   •   Reviewed the Authority’s internal control structure.

   •   Reviewed minutes of the Authority’s board of commissioners’ meetings.

   •   Nonstatistically selected eight contracts with values greater than $50,000 from 150
       contracts that the Authority had in place with ending dates of September 30, 2005, or
       later, as of May 2006, to review the Authority’s compliance with procurement
       regulations.

   •   Nonstatistically selected 10 Line of Credit Control System drawdowns, valued at $4.5
       million, to determine whether the drawdowns were adequately supported.

   •   Reviewed 10 low-income housing tenant files to verify tenant eligibility and the accuracy
       of rent calculations and to determine whether inspections of the housing units were
       completed as required.

   •   Reviewed the Authority’s audited financial statements for years 2004 and 2005 and other
       financial records as appropriate.

   •   Reviewed the Authority’s interfund balances and notes payable.




                                                10
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

                  •   Settling interfund balances monthly, and

                  •   Conducting all procurement transactions in accordance with federal
                      procurement regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              The Authority did not

                  •   Ensure that interfund balances were settled monthly.

                  •   Ensure that procurement transactions were conducted in accordance with
                      federal procurement regulations.




                                               11
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation        Ineligible 1/   Funds to be put
                          number                          to better use 2/
                                 1A        $246,254*
                                 1B                            $489,522


     * The Authority took action to repay this amount. No further action concerning this
     recommendation is required.


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. If the Authority implements our recommendations, it
     will cease using low-rent public housing funds to pay expenses of its other programs.
     Once the Authority improves its controls, this will be a recurring benefit. Our estimate
     reflects only the initial year of this benefit.




                                            12
Appendix B

             AUDITEE COMMENTS


                     Auditee Comments




                    13
14
15
